Audit Report GR-70-05-018

Use of Equitable Sharing Assets by the Police Department of the 
City of Lowell, Massachusetts

Audit Report GR-70-05-018


September 2005
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of the use of DOJ equitable sharing assets by the Police Department of the City of Lowell, Massachusetts (Lowell).  We performed the audit at the request of the DOJ Criminal Division, Asset Forfeiture and Money Laundering Section.  The audit covered the period of July 1, 2000, through June 30, 2004, during which Lowell received $782,626 in DOJ equitable sharing cash and $2,638 in property for participating in investigations leading to forfeiture.

We reviewed Lowell's accountability and use of equitable sharing assets and found that Lowell did not fully comply with DOJ equitable sharing guidelines.  As a result of the weaknesses identified, we question $46,744 in federal equitable sharing cash received by Lowell during the audit period.1   Specifically, we found that Lowell:

did not submit accurate Annual Certification Reports for fiscal years (FY) 2001-2004 and submitted the FYs 2001 and 2003 reports late;

	did not properly track equitable sharing requests to the subsequent receipts of cash and property;

	made $46,744 in unsupported expenditures for overtime; and

	did not have adequate internal controls over accounting for equitable sharing fund transactions.
Our audit results are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with Lowell officials and have included their comments in the report, as applicable.  In addition, we requested a response to our draft audit report from Lowell and the Executive Office of Asset Forfeiture, and their responses, in addition to a supplemental response from the Lowell Law Department, are in Appendices III, IV, and V at the end of this report.   
   



Footnote

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.